December 9, 2008

TIMOTHY C. HANEY
VICE PRESIDENT, NORTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Vehicle Maintenance Facilities –
         Scheduled Maintenance Service in the Northeast Area
         (Report Number DR-AR-09-001)

This report presents the results of our self-initiated audit of Vehicle Maintenance
Facilities (VMF) – Scheduled Maintenance Service in the Northeast Area (Project
Number 08XG009DR000). The overall objectives were to assess whether the
Northeast Area accomplished all required scheduled maintenance and whether they
integrated both VMFs and local commercial resources for optimum efficiency. See
Appendix A for additional information about this audit.

Conclusion

The Northeast Area completed nearly all the required scheduled preventive
maintenance (SPM)1 during fiscal year (FY) 2007 on their delivery vehicles. However,
management could further optimize VMF efficiencies through more effective use of VMF
and local commercial resources. The Northeast Area could save an estimated $14.8
million over 10 years by better optimizing its resources.

Scheduled Maintenance Performance

Northeast Area VMF units and local commercial vendors (LCVs) completed an average
of 98 percent of all SPM during FY 2007. Four units completed all of the SPM, while the
other four units reviewed completed between 94 and 99 percent of the required SPM.
Management stated that some of the SPM were not completed due to the additional
maintenance hours used for increased unscheduled maintenance and repair and a
staffing shortage in FY 2007.

Without completing all required scheduled maintenance and repairs, Postal Service
vehicles are vulnerable to breakdowns, which could adversely impact timely mail
delivery and potentially impact the well-being of employees and the public. Since the
1
 An SPM usually includes a preventive maintenance inspection and any repairs needed to maintain the vehicle or
meet safety and reliability standards.
Vehicle Maintenance Facilities – Scheduled                                       DR-AR-09-001
 Maintenance Service in the Northeast Area


Postal Service does not plan to replace its current fleet of long life vehicles (vehicles
that are more than 20 years old) until 2018, we believe it is critical that these vehicles
receive timely SPM. See Appendix B for additional information about this issue.

We recommend the Vice President, Northeast Area Operations, direct district managers
to:

1. Require vehicle maintenance facility officials to complete all required scheduled
   maintenance and immediately conduct any missing or past due maintenance.

2. Assess vehicle maintenance technician positions at individual vehicle maintenance
   facilities to ensure sufficient staff is available for maintenance service.

Optimum Use of Resources

The Northeast Area did not always optimize its resources to ensure management spent
maintenance and repair funds in the most efficient and cost effective manner.
Specifically, VMF officials often used LCVs for vehicle maintenance and repairs when
using VMF resources would have been more efficient and economical. Likewise, VMF
officials often used VMF resources when it would have been more efficient and
economical to use LCVs. Additionally, VMF officials used maintenance employees to
shuttle vehicles between facilities for maintenance and repairs when more economical
means existed. See Appendix C for additional information on the optimum use of
resources.

The following factors contributed to these conditions. Although VMF units had a vehicle
maintenance plan, the plan did not fully consider:

   •   The optimal combination of VMF resources and LCVs for performing scheduled
       maintenance and repairs.

   •   The cost effectiveness of using LCVs instead of VMF resources to shuttle
       vehicles between facilities for maintenance and repairs.

As a result, the Northeast Area expended more resources than necessary to complete
vehicle maintenance and repairs. By optimizing its resources, the Northeast Area could
reduce operating costs by about $823,203 annually, or approximately $14.8 million
projected over 10 years. See Appendix D for our detailed analysis of the monetary
impact.




                                              2
Vehicle Maintenance Facilities – Scheduled                                   DR-AR-09-001
 Maintenance Service in the Northeast Area



We recommend the Vice President, Northeast Area Operations, direct district managers
to:

3. Work with vehicle maintenance facility officials to:

   •   Maintain the most efficient combination of vehicle maintenance facility and
       commercial resources based on geographical location and costs.

   •   Make optimal use of the Postal Service’s national vehicle shuttle agreement or
       other local commercial shuttle services, when cost effective, for transporting
       vehicles to and from maintenance facilities.

Management’s Comments

Management agreed with our findings and recommendations. Management will direct
all district managers to require VMF officials to immediately develop a plan to complete
all scheduled maintenance in arrears and have each district maintain a current
preventative maintenance status. In addition, management will continue to use the
staffing model developed at the Northeast Area until the Postal Service Headquarters
national staff requirements package is complete. Further, management stated district
managers and vehicle maintenance managers will review their maintenance operations
to determine if there is a more efficient and cost effective combination when using VMF
and commercial resources. Also, management stated they are in the process of
finalizing a cost comparison for shuttling operations for each VMF in the Northeast Area.
For any VMF where it is cost effective, management will require that facility to use
contractor services for shuttling vehicles. Finally, management stated they were not in
agreement with the identified savings opportunity and methodology of $14.8 million over
10 years; they calculated the savings opportunity at $13.6 million over 10 years. See
Appendix G for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report. The OIG considers recommendation 3
significant and, therefore, requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. This
recommendation should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendation can be closed.

Management recalculated the savings opportunity at $13.6 million over 10 years by
using the national average of 13.4 hours per vehicle inspection rather than the
Northeast Area average of 14.5 hours per inspection. However, the methodology we
used to calculate savings was based on the Northeast Area average, which we believe




                                             3
Vehicle Maintenance Facilities – Scheduled                                           DR-AR-09-001
 Maintenance Service in the Northeast Area


provides a reasonable estimate because it accounts for the Northeast Area’s specific
maintenance activities. Therefore, we will report $14,817,650 of funds put to better use2
in our Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, Director, Delivery,
or me at (703) 248-2100.

        E-Signed by Robert Batta
    VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Jordan M. Small
    Wayne W. Corey
    Katherine S. Banks




2
    Funds that could be used more efficiently by implementing recommended actions.




                                                    4
Vehicle Maintenance Facilities – Scheduled                                     DR-AR-09-001
 Maintenance Service in the Northeast Area



                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service invested more than $3 billion in vehicle assets to transport and
deliver the mail. The vehicle inventory consists of 219,522 delivery, transport, and
administrative vehicles, of which delivery and collection vehicles (see the examples in
Figure 1) account for 195,211 (or about 89 percent) of the total fleet. The Postal
Service acquired the majority of these vehicles between 1987 and 1994 and planned to
maintain them for 24 years. About 7,700 of these vehicles purchased in 1987 are
approaching the end of their useful life. However, the Postal Service recently stated
that capital constraints now dictate that many of these vehicles must stay in service until
2018 — 7 years more than the planned lifespan.

                                          Figure 1
                    Delivery and Collection Vehicles in VMFs for SPM




                    Source: Postal Service

Management established 190 main and 131 auxiliary VMFs to maintain these assets in
a technically reliable, safe, clean, and neat condition for efficient mail transportation.
Vehicle maintenance includes selecting and training maintenance technicians; providing
garages, tools, and equipment; performing repairs; and monitoring and maintaining
preventive maintenance standards. The geographic location of VMFs and auxiliary
VMFs varies in each area as needed to support vehicle maintenance and reduce
transportation costs. Management established auxiliary VMFs for situations where
vehicle maintenance requirements exceed VMF resources or where shuttle time or
geographical distances warrant use of an auxiliary VMF.

Area officials are responsible for validating staffing requirements for vehicle related
positions and ensuring an adequate scheduled maintenance program. Vehicle
maintenance managers have overall responsibility for oversight of all maintenance and
repair services performed at VMF units, as well as any work contracted to commercial
vendors. Although the VMF manager has overall responsibility for vehicle maintenance,
vehicles are usually assigned to Vehicle Post Offices (VPOs). VPOs can be post
offices, branches, stations, associated offices, or other delivery and support facilities.




                                             5
Vehicle Maintenance Facilities – Scheduled                                                 DR-AR-09-001
 Maintenance Service in the Northeast Area


Officials at VPOs can also contract with LCVs for maintenance and repair services, but
they are required to document the repairs and obtain the VMF manager’s approval for
repairs and services costing more than $250.

The Postal Service developed Handbook PO-701, Fleet Management, to assist
operating personnel in maintaining the vehicle fleet in the most economical manner
possible. The handbook requires a maintenance plan that provides for regular
examination and service of Postal Service-owned vehicles. VMF managers must
prepare a vehicle maintenance plan designating where and when each vehicle will
receive scheduled maintenance. The handbook also emphasizes that preventive or
scheduled maintenance is preferable to reactive or unscheduled maintenance. See
Appendix F, “Scheduled Maintenance Process,” for a flowchart.

The Postal Service also established a Model Vehicle Maintenance Facility Performance
Review Program. The program is an integral part of VMF operations and a key tool for
determining the efficiency of a unit at a given time and identifying areas that need
corrective action. Districts must ensure VMFs perform self-reviews quarterly. A VMF
must achieve a score of 85 or more to be certified. The area must certify or recertify
each unit at least every 3 years.

The Postal Service uses the Vehicle Management Accounting System (VMAS) to code
and track costs. VMAS is a computer-based support system designed to collect,
process, store, present, and communicate vehicle maintenance data. The table below
shows VMF expenses, including commercial vendors’ expenses, for FY 2007.

                         Table 1. Maintenance Expenditures for FY 2007 by Area
                                           VMF and Commercial Expenditures
                                        Commercial            VMF
                  Postal Service      Vendor Expenses      Expenses in    Total Expenses
                 Area of Operation       in FY 2007          FY 2007        in FY 2007
                 Southeast                   $13,867,484   $52,648,111      $66,515,595
                 Great Lakes                  15,152,866    46,536,525       61,689,391
                 Eastern                      12,213,149    45,085,152       57,298,301
                 Northeast                    10,382,055    45,808,493       56,190,548
                 Pacific                       9,105,547    42,819,217       51,924,764
                 Northeast                    10,821,346    37,860,317       48,681,663
                 New York Metro               12,433,942    36,814,803       49,248,745
                 Southwest                     7,194,386    36,503,347       43,697,733
                 Capital Metro                 7,643,667    32,808,458       40,452,125
                 Total                       $98,814,442   $376,884,423     $475,698,865
               Source: Postal Service Category Management Center




                                                     6
Vehicle Maintenance Facilities – Scheduled                                                        DR-AR-09-001
 Maintenance Service in the Northeast Area




OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to assess whether the Northeast Area accomplished all
required scheduled maintenance and whether they integrated both VMFs and local
commercial resources for optimum efficiency.

To accomplish the objectives, we randomly selected and reviewed vehicle service files
from eight3 of the 18 VMFs in the Northeast Area. We documented the scheduled
maintenance and the amount of SPM required and whether it was conducted in a timely
manner, and reviewed work order files to document whether SPM performed was
considered actual SPM, based on the time required for maintenance. We reviewed the
xxxxxxxxxxx xxxxxxxxxx xxxxxxxxxxx xxxxxx xxxxxxxx to analyze vehicles in
“maintenance in arrears” status and compared the number of SPMs completed to actual
maintenance records. We also obtained data from Web Complement Information
System (WebCOINS) on the number of vehicle maintenance technicians and other data
from the Enterprise Data Warehouse (EDW) System.

We obtained a random sample of eight of the Northeast Area’s VMFs from all districts
and reviewed FY 2007 VMAS data for scheduled maintenance services for the selected
Northeast Area VMFs. See Appendix E for more information. We identified the number
of Preventive Maintenance Inspections (PMI)4 to be performed at each auxiliary VMF
and the VPOs where the vehicles were located and their distance from the VMFs, and
documented the number of vehicle maintenance technicians assigned to each VMF.

We identified each VMF’s and LCV’s expenditures for scheduled maintenance. In
discussions with VMF managers and reviews of maintenance records, we documented
the amount of SPM and SPM inspections required for each location on a yearly basis.
Using the VMAS vehicle work order history, we analyzed the average time to perform
an SPM for the eight units reviewed in our sample.

We developed an optimization model that used the above operational data to establish
a baseline, standards, key characteristics, shuttle usage, and cost. Using this data, we
established an optimum operating efficiency for each VMF. Based on the above
analyses, assumptions, and constraints, we estimated the Northeast Area could
increase overall VMF efficiency and we projected the cost savings for the Northeast
Area’s universe of 18 VMFs. See Appendix D, “Calculation of Cost Savings,” for the
model and assumptions we used to compute monetary benefits.



3
  We reduced the random sample from ten to eight because we excluded the Buffalo and Fall River VMFs due to their
unique geographical challenges and the difficulty in verifying SPMs due to discrepancies in vehicle inventory.
4
  A PMI is that portion of required scheduled maintenance a vehicle must receive to determine if mechanical and
safety systems are functioning properly.




                                                       7
   Vehicle Maintenance Facilities – Scheduled                                    DR-AR-09-001
    Maintenance Service in the Northeast Area


   We conducted this performance audit from November 2007 through December 2008 in
   accordance with generally accepted government auditing standards and included tests
   of internal controls that we considered necessary under the circumstances. Those
   standards require that we plan and perform the audit to obtain sufficient, appropriate
   evidence to provide a reasonable basis for our findings and conclusions based on our
   audit objectives. We believe the evidence obtained provides a reasonable basis for our
   findings and conclusions based on our audit objectives. We relied on data from VMAS
   and WebEIS. We did not audit these systems, but performed a limited review of data
   integrity to support our reliance on the data. We discussed our observations and
   conclusions with management officials on October 16, 2008, and included their
   comments where appropriate.

   PRIOR AUDIT COVERAGE

   The OIG has issued eight reports related to our objectives in the last several years.

                                             Report                                 Report
          Report Title                       Number       Final Report Date         Results
Vehicle Maintenance Facilities –          DR-AR-08-011   September 30, 2008       $25,287,093
Scheduled Maintenance Service in
the New York Metro Area

Vehicle Maintenance Facilities –          DR-AR-08-010   September 30, 2008       $21,580,236
Scheduled Maintenance Service in
the Pacific Area

Vehicle Maintenance Facilities –          DR-AR-08-009   September 29, 2008       $28,224,843
Scheduled Maintenance Service in
the Great Lakes Area

Vehicle Maintenance Facilities –          DR-AR-08-008   September 29, 2008       $14,251,384
Scheduled Maintenance Service in
the Western Area

Vehicle Maintenance Facilities –          DR-AR-08-007   September 16, 2008       $27,620,773
Scheduled Maintenance Service in
the Southeast Area

Vehicle Maintenance Facilities –          DR-AR-08-006   August 14, 2008          $34,522,159
Scheduled Maintenance Service in
the Southwest Area

Maintenance and Repair                    DR-MA-07-005   September 21, 2007        $1,571,517
Payments to Commercial Vendors




                                                  8
   Vehicle Maintenance Facilities – Scheduled                                    DR-AR-09-001
    Maintenance Service in the Northeast Area


Using Postal Service Form 8230,
Authorization for Payment
Management of Delivery Vehicle            DR-AR-06-005   June 14, 2006            $22,796,487
Utilization

   The previous 2008 audits, like this one of the Northeast Area, are part of a series of
   audits on this topic. Similar to these prior audits, the Northeast Area did not complete
   SPM on all vehicles and did not always integrate both VMF and LCV resources for
   optimum efficiency. Management agreed with our findings and recommendations and
   generally agreed with the monetary impact on our prior reports.

   The 2007 audit concluded that using Postal Service (PS) Form 8230, Authorization for
   Payment, to pay commercial vendors for maintenance and repair services was not cost
   effective and did not include controls to reconcile payments and ensure repair costs
   were reasonable. Management agreed with our findings, recommendations, and
   monetary impact.

   The 2006 audit concluded that Postal Service officials made significant strides in
   reducing costs associated with delivery vehicle expenditures over the previous 3 years.
   However, delivery management officials could further improve the use of vehicles that
   support delivery operations. Management agreed with our findings, recommendations,
   and monetary impact.




                                                  9
Vehicle Maintenance Facilities – Scheduled                                                DR-AR-09-001
 Maintenance Service in the Northeast Area


                APPENDIX B: SCHEDULED MAINTENANCE PERFORMANCE

The Northeast Area completed 98 percent of their required SPM during FY 2007. Four
units completed all of their SPM, while the other four units we reviewed completed
between 94 and 99 percent of the required SPM. See Table 2.

               Table 2. Scheduled Preventive Maintenance Performed in FY 2007
                                              Required in                    Percentage
                          VMF Location         FY 2007        Performed      Performed5
                       Xxxxxxxx                      1,610          1,610          100

                       Xxxxxxxx                      3,083          3,007           97
                       Xxxxxxxxxx                    2,114          2,100           99
                       Xxx Xxxxx                     2,361          2,214           94
                       Xxxxxxxx                      1,191          1,191          100
                       Xxxxxxxx                      1,573          1,523           96
                       Xxxxxxxxx                     1,608          1,607          100
                       Xxxxxxxxx                     1,236          1,231          100
                       Xxxxxxx                 Not Verified   Not Verified         N/A
                       Xxxx Xxxxx              Not Verified   Not Verified         N/A
                       Total/Average                14,776        14,483           98%
                      Source: VMAS and OIG optimization model

Extensive Unscheduled Maintenance and Repair. Management attributed past due
SPM to the additional maintenance hours used to repair rust and corrosion damage to
the frames and chassis of approximately 179 vehicles. Winter weather conditions in the
Northeast Area caused the damage to these vehicles. The Northeast Area performed
the frame and chassis repairs on the vehicles concurrently with the SPM. As a result,
the additional repairs used maintenance hours that would have gone toward performing
the remaining SPM in FY 2007.

Staffing Shortage. VMF officials stated they did not complete all required SPM due to a
shortage of 13 vehicle maintenance technicians during FY 2007. Officials indicated
they based their staffing requirements on a study a headquarters task force completed
several years ago. Based on the results of this study, management allocated each VMF
a number of maintenance technician positions per facility. VMF officials used this data
because headquarters had not established a formal staffing policy for VMF maintenance
technician positions. While WebCOINS showed the Northeast Area with the 13 full-time
maintenance technician vacancies, our optimization model analysis does not support
additional full-time maintenance technicians for these VMFs if the units performed at an
optimal level.


5
    Percentage of required SPMs performed was rounded.




                                                         10
Vehicle Maintenance Facilities – Scheduled                                                           DR-AR-09-001
 Maintenance Service in the Northeast Area


In fact, our analysis showed a decrease of three maintenance technicians was
necessary. See Table 3.

                            Table 3. Estimated VMF Staffing Increase/Reduction Needs
                                         Based on OIG Optimization Model
                                                                      Staff Increase
                                                                       (Reduction)
                                            Currently                    per OIG
                                            Assigned Technicians       Optimization
                            VMF Location Vehicles        Assigned         Model
                            Xxxxxxxx              753             13                0
                            Xxxxxxxx            1438              30               -1
                            Xxxxxxxxxx            998             17                0
                            Xxxxxxxxx           1022              20                0
                            Xxxxxxxx              597             13                0
                            Xxxxxxxx              714             15                0
                            Xxxxxxxxx             704             13                0
                            xxxxxxxxx             753             13               -2
                            Total               6,979            134               -3

Tracking and Monitoring. The maintenance process tracks the status of vehicles in
arrears6 rather than the SPM performed. Vehicles in arrears indicate vehicles with
incomplete scheduled maintenance; however, any adjustment to the SPM schedule has
the impact of removing all vehicles in arrears from VMAS. Although we determined the
sampled VMFs7 performed the majority of their SPM, the process of verifying this
proved difficult.8 We attributed this to the way scheduled maintenance was tracked for
VMFs nationwide.

Without completing all required scheduled maintenance and repairs, Postal Service
vehicles are vulnerable to breakdowns, which may create mail delays and service
problems. Further, by performing the required SPM, the number of vehicle accidents
could decrease, thereby lowering costs and increasing the well-being of employees and
the public. Since the Postal Service does not plan to begin replacing its current fleet of
long life vehicles (vehicles that are more than 20 years old) until 2018, we believe it is
critical that these vehicles receive the required maintenance.




6
  The “vehicles in arrears” status is a performance measure for VMFs.
7
  We excluded two VMFs (xxxxxxx xxx xxxx xxxxx) from our sample due to the difficulty and time involved in verifying
the number of SPMs performed because of discrepancies of vehicle inventory.
8
  The issue of more easily tracking and monitoring scheduled maintenances requires action by Postal Service
Headquarters and we will address it in a national capping report for scheduled maintenance.




                                                         11
Vehicle Maintenance Facilities – Scheduled                                                      DR-AR-09-001
 Maintenance Service in the Northeast Area


                        APPENDIX C: OPTIMUM USE OF RESOURCES

The Northeast Area did not always optimize its resources to ensure it expended
maintenance and repair funds in the most efficient and cost effective manner.
Specifically, maintenance officials sometimes used LCVs for vehicle maintenance and
repairs when using VMF resources would have been more efficient and economical.
Likewise, management sometimes used VMF resources when it would have been more
efficient and economical to use LCVs. Additionally, VMF officials used maintenance
employees to shuttle vehicles from the VPO to the VMF when means that are more
economical existed.

Several factors contributed to these conditions.

    o Optimum use of VMF and Local Commercial Resources. The vehicle
      maintenance plan did not consider an optimum combination of both VMF and
      commercial resources.9 Generally, it is more cost effective10 for the VMF to
      perform SPM on vehicles stationed within 50 miles of the VPO. However, we
      concluded a local commercial vendor should perform SPM on vehicles when the
      VPO is more than 50 miles from the nearest VMF. We determined that 1,755
      SPMs should have been performed at the other site-either the VMF or the
      commercial facility. See Table 4.

                   Table 4. VMF and Local Commercial Vendor Resources
                           FY 2007 SPMs                             Sites SPMs Were      Total SPMs That
                           Performed by                                 Performed        Could Have Been
                                                                                          More Optimally
                                                                                          Performed by
                                     Local        Total SPMs                   Local      Either VMF or
      VMF Location       VMF        Vendors       Performed         VMF       Vendors     Local Vendors
            Brockton       1,610              0             1,610         0        17                  17
             Hartford      3,083              0             3,007         0        64                  64
         Manchester        1,926          174               2,100     11          401                 412
         New Haven         2,214              0             2,214         0       431                 431
            Portland       1,132           59               1,191         0       337                 337
            Stamford       1,523              0             1,523         0       120                 120
          Waterbury        1,561           46               1,607     10          226                 236
           Worcester       1,045          186               1,231     66           72                 138
               Total     14.094           465              14,483     87         1,668               1,755
    Source: VMAS data and OIG optimization model




9
  VMAS does not track the number of SPMs accomplished. The OIG’s efficiency and optimization model estimated
the number completed by analyzing all work orders assigned to code 22 (scheduled maintenance) and, with some
adjustment, considered all work of at least 2 hours as an SPM.
10
   We base cost effectiveness on the overhead costs to transport vehicles between the VMF and the VPO using
vehicle maintenance technicians or other VMF personnel.




                                                      12
      Vehicle Maintenance Facilities – Scheduled                                                                DR-AR-09-001
       Maintenance Service in the Northeast Area


             o Vehicle Shuttling. In most cases, we found the Postal Service’s national vehicle
               shuttle agreement or local commercial shuttling services were more cost effective
               than using VMF maintenance technicians. The Northeast Area used about
               13,083 workhours for vehicle maintenance technicians to shuttle vehicles rather
               than perform maintenance. The shuttle workhours related to SPM were equal to
               seven vehicle maintenance technician positions at a cost of $563,092.11 See
               Table 5.

                   Table 5. Vehicle Maintenance Technician Hours Used for Shuttling
                                                                                                                          Cost of
                   Number of        Estimated                          Percentage       Shuttle                           Shuttle
                    Vehicle         Scheduled          Total            of Direct     Hours Used        Equivalent      Hours Used
                  Maintenance      Maintenance        Shuttle         Maintenance         for          Maintenance           by
                  Technicians         Hours         Hours Used        Hours Used       Scheduled       Technician       Maintenance
 VMF Location      Assigned         Available       in FY 2007        for Shuttling   Maintenance       Positions       Technicians
 Brockton                     13          18,242                0                0                0                0                $0
 Hartford                     30          42,096            5,180               12            3,768             2.15           $162,175
 Manchester                   17          23,854            1,797                8            1,021             0.58            $43,944
 New Haven                    20          28,064            4,814               17            3,711             2.12           $159,721
 Portland                     13          15,435              889                6              455             0.26            $19,583
 Stamford                     15          21,048            1,972                9            1,784             1.02            $76,783
 Waterbury                    13          18,242            2,876               16            2,337             1.33           $100,584
 Worcester                    13          18,242               10                0                7                0              $301
 Totals/Percent             134          185,222          17,538                 9           13,083                7           $563,092
Source: VMAS and OIG optimization model

      We found the Northeast Area VMF Managers and the Vehicle Management Program
      Analyst to be proactive in managing vehicle maintenance and receptive to the intent of
      our audit and recommendations. Management officials did express concern that:

             o VMFs may not always find cost effective shuttle alternatives. They also raised
               the possibility of union concerns with using contractors instead of VMF
               personnel.

             o The quality of maintenance that LCVs perform is often not at the same level as
               that of the VMFs and they do not have staff and time to monitor LCVs’ work.

             o The new policies restricting the ability to fill existing vacancies caused by attrition
               and a reduction or elimination of overtime could compromise the VMFs’ ability to
               capture cost savings.

             o The use of additional maintenance workhours to repair extensive rust and
               corrosion damage was due to the winter weather conditions of an aging fleet.


      11
        This estimate of equivalent technician positions applies only to the hours used for shuttling. It does not relate to
      any actual reductions in this report.




                                                                 13
Vehicle Maintenance Facilities – Scheduled                                 DR-AR-09-001
 Maintenance Service in the Northeast Area


The OIG acknowledges the issues and concerns management raised and the
challenges the Postal Service faces regarding VMF operations. Notwithstanding these
concerns and challenges, in our opinion, opportunities exist to become more efficient
and save money. Specifically, the Northeast Area could lower overall VMF operating
costs by an average of $823,203 annually. These efficiencies, when projected for the
18 VMFs in the Northeast Area, could save an estimated $14 million over a 10-year
period. See Appendix D for more information.




                                             14
Vehicle Maintenance Facilities – Scheduled                                                        DR-AR-09-001
 Maintenance Service in the Northeast Area


                   APPENDIX D: OIG CALCULATION OF COST SAVINGS

The OIG identified $14,817,650 in funds put to better use over the next 10 years for the
Northeast Area’s 18 VMFs.12

                                    Savings in Dollars
                                            Average     Estimated
                                            Annual     Savings Over
                        VMF Location        Savings      10 Years
                     Brockton                 $83,558       $835,578
                     Hartford                 126,279      1,262,789
                     Manchester               237,410      2,374,099
                     New Haven                 59,164        591,644
                     Portland                 231,971      2,319,714
                     Stamford                  55,275        552,751
                     Waterbury                 12,583        125,825
                     Worcester                 16,963        169,628
                     Totals                  $823,203     $8,232,028
                     Projected Potential Savings Over
                     18 VMFs in Northeast Area           $14,817,650
                    Source: OIG optimization model

We calculated the savings based on the following methodology and assumptions:

     •   Each VMF has a list of VPOs for which it is responsible for vehicle maintenance.
         Each VPO has a number of Postal Service vehicles that require regular SPM.
         The amount of SPM that a vehicle requires is determined at the beginning of the
         year based on the demands the assigned route places on the vehicle. VMFs
         must perform all SPM for a given year on each vehicle; however, the VMF may
         delegate some of this workload to commercial vendors that are near the VPOs.
         We refer to this contract labor as LCVs.

     •   The purpose of this audit was to determine the optimal use of the SPM to be
         performed by the VMFs and LCVs. We took into consideration the mechanics’
         labor costs and all relevant shuttling costs. As with the SPMs, VMFs may
         contract out shuttling. The Postal Service has a national vehicle shuttle
         agreement and the OIG used that rate in the analysis. However, VMFs can use
         a less expensive local shuttle contractor if it can identify one.



12
  At a 95 percent confidence level, the OIG estimates the 10-year savings amount to range between $8.5 and $28.5
million. We used the midpoint estimate of $14.8 million in our statistical projection.




                                                       15
Vehicle Maintenance Facilities – Scheduled                                                          DR-AR-09-001
 Maintenance Service in the Northeast Area


     •   We developed the optimization model to find a least-cost solution based on
         performing all required SPM. We used the VMFs’ FY 2007 operational data. We
         considered any SPM not currently performed by VMFs to be completed by
         LCVs.13 We restricted the scope of this audit to maintenance technicians’ time
         spent performing scheduled maintenance and shuttling activities. This analysis
         draws no conclusions regarding the time dedicated to other activities, or how
         maintenance technicians used the remainder of their time.

     •   We optimized the VMFs’ scheduled maintenance and shuttling time for the next
         10 years, assuming the Postal Service would reduce the labor contingent by 4.5
         percent per year, the historical Northeast Area attrition rate.14 This optimization
         gives the least-cost solution and specifies how the SPM at each VPO should be
         distributed between the VMFs and the LCVs. The model shows which shuttling
         jobs both the VMFs and the contractors should perform. The model analyzes all
         costs and hours (for SPM at VMFs, SPM at LCVs, VMF shuttling, and contract
         shuttling). The model also compares total SPM currently performed by the VMFs
         and local vendors to the total amount that could be more optimally performed by
         VMFs or LCVs.

     •   In these optimizations, we assumed that each VMF would operate at a standard
         efficiency. We used the sampled eight VMFs’ average time per SPM as a
         standard for the time it takes to complete an SPM in that area. If a particular
         VMF performed better than this standard, we assumed the VMF maintained its
         current efficiency.

     •   VMAS does not track the number of SPMs accomplished for each vehicle. The
         OIG’s efficiency and optimization model estimated the number of SPMs
         completed by analyzing all work orders assigned to code 22 (scheduled
         maintenance) and with adjustments (i.e., new vehicles and commercial repairs)
         considered all work lasting at least 2 hours15 as an SPM. We explained the
         process to the VMF manager and then confirmed/adjusted the number of SPMs
         required and completed.




13
   We obtained the current number of SPMs performed by VMFs and LCVs from VMAS databases located at the
VMFs and xxxxxxxxxxx xx xxx xxxxxxxxx xxxxxxxx xx xxx xxxxx xxxxxxxxxxx xxxxxxxxxx xxx xxxxxxxxxx xxxxxxx
xxxxxx. Because a VMF may not perform all its required SPMs, we assumed LCVs would perform the remaining
SPMs. In addition, in some cases, a VMF performed more SPMs than required at a VPO. We credited the VMFs
with these additional SPMs and determined a comparable solution by reassigning these SPMs to the closest location
with a shortfall. We accomplished this in part by assuming that the baseline case kept the scheduled maintenance
hours and shuttling hours constant at current levels.
14
   The historical attrition rate for Northeast Area maintenance technicians was determined by averaging the past 7
years’ (2001-2007) worth of data obtained from the xxxxxx.
15
   We used 2 hours because of the Postal Service’s requirement for a “Type A” and “Type B” maintenance inspection
prior to any repair work. These inspections require between 1.5 and 2.5 hours.




                                                        16
Vehicle Maintenance Facilities – Scheduled                                                          DR-AR-09-001
 Maintenance Service in the Northeast Area



       •   We identified cost savings if the VMF was not efficiently using its shuttling time.
           We compared the VMF's total shuttling time to the aggregate time that should be
           needed to perform all of the VMFs’ shuttling, assuming that two vehicles were
           transported on each trip. The cost of any excess time was time the VMFs could
           have saved, although the actual amount of time that could be saved was likely to
           be higher because the VMFs probably did not perform all of their own shuttling.

       •   For our model, we reviewed the minimum and maximum overtime hours per
           week from what the VMFs used during the first 6 months of FY 2008 determined
           from the EDW system. The number of hours of straight time each mechanic
           worked per year is 1,754.16

       •   Based on the above analyses and projections, we estimated the Northeast Area
           could reduce costs by using local commercial resources for shuttling and SPM
           when appropriate. We projected over the Northeast Area’s universe of 18 VMFs,
           a reduction of costs by approximately $823,203 annually, or more than $14
           million over a 10-year period. These savings include any reduction in the
           number of vehicle maintenance technician positions through attrition over time.




16
     Source: Finance Memorandum dated March 6, 2006, “Workhour Rates for Fiscal Years 2005-2007.”




                                                       17
Vehicle Maintenance Facilities – Scheduled                          DR-AR-09-001
 Maintenance Service in the Northeast Area



                         APPENDIX E: SELECTED DISTRICTS AND
                           VEHICLE MAINTENANCE FACILITIES


                               District                   VMF
                      Connecticut                      Hartford
                                                       New Haven
                                                       Stamford
                                                       Waterbury


                      Maine                            Portland


                      Massachusetts                    Worcester


                      New Hampshire/Vermont            Manchester


                      Southeast New England            Brockton
                     Source: OIG Experts Sample




                                                  18
Vehicle Maintenance Facilities – Scheduled                                        DR-AR-09-001
 Maintenance Service in the Northeast Area



                                                                             17
                    APPENDIX F: SCHEDULED MAINTENANCE PROCESS




17
     Source: Postal Service Handbook PO-701, Fleet Management, March 1991.




                                                       19
Vehicle Maintenance Facilities – Scheduled                 DR-AR-09-001
 Maintenance Service in the Northeast Area


                       APPENDIX G: MANAGEMENT’S COMMENTS




                                             20
Vehicle Maintenance Facilities – Scheduled        DR-AR-09-001
 Maintenance Service in the Northeast Area




                                             21
Vehicle Maintenance Facilities – Scheduled        DR-AR-09-001
 Maintenance Service in the Northeast Area




                                             22
Vehicle Maintenance Facilities – Scheduled        DR-AR-09-001
 Maintenance Service in the Northeast Area




                                             23
Vehicle Maintenance Facilities – Scheduled        DR-AR-09-001
 Maintenance Service in the Northeast Area




                                             24
